OFFICE OF AUDIT
REGION 9
LOS ANGELES, CA




                   Office of Finance and Budget
                  Office of Single Family Housing
                          Washington, DC

           FHA Indemnification Recovery Process




2014-LA-0005                                        AUGUST 8, 2014
                                                        Issue Date:    August 8, 2014

                                                        Audit Report Number: 2014-LA-0005




TO:            Monica A. Clarke
               Deputy Assistant Secretary for Office of Finance and Budget, HW

               Kathleen A. Zadareky
               Deputy Assistant Secretary for Office of Single Family Housing, HU

               //SIGNED//
FROM:          Tanya E. Schulze
               Regional Inspector General for Audit, Los Angeles Region, 9DGA


SUBJECT:       HUD Did Not Always Recover FHA Single-Family Indemnification Losses and
               Ensure That Indemnification Agreements Were Extended


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of HUD’s indemnification recovery process
for single-family loans.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
213-894-8016.
                                            August 8, 2014
                                            HUD Did Not Always Recover FHA Single-Family
                                            Indemnification Losses and Ensure That Indemnification
                                            Agreements Were Extended



Highlights
Audit Report 2014-LA-0005


 What We Audited and Why                     What We Found

We audited the U.S. Department of           HUD did not always bill lenders for FHA single-
Housing and Urban Development’s             family loans that had an indemnification agreement
(HUD) controls over its Federal             and a loss to HUD. Specifically, it did not bill lenders
Housing Administration (FHA) loan           for any loans that were part of the Accelerated Claims
indemnification recovery process based      Disposition (ACD) program or the Claims Without
on the Office of Inspector General’s        Conveyance of Title (CWCOT) program or loans that
analysis of HUD data that indicated         went into default before the indemnification agreement
indemnification losses were not always      expired but were not in default on the expiration date.
recovered for FHA single-family loans.      There were a total of 486 loans from January 2004 to
Our objective was to determine whether      February 2014 that had enforceable indemnification
HUD had adequate controls in place to       agreements and losses to HUD but were not billed.
monitor indemnification agreements          This condition occurred because HUD’s Financial
and recover losses on FHA single-           Operations Center was not able to determine loss
family loans.                               amounts for loans that were part of the ACD program,
                                            was not aware of the CWCOT program, and
                                            considered the final default date for billing only. As a
 What We Recommend
                                            result, HUD did not attempt to recover a loss of $37.1
                                            million for 486 loans that had enforceable
We recommend that HUD’s Office of           indemnification agreements.
Finance and Budget (1) initiate the
billing process for 491 loans that had an   In addition, HUD did not ensure that indemnification
enforceable indemnification agreement       agreements were extended to 64 of 2,078 loans that
and (2) develop and implement policies      were streamline refinanced. The indemnification
and procedures to ensure that lenders       agreement for 21 loans contained language indicating
are billed for loans that have              that the agreements should have extended to loans that
enforceable indemnification agreements      were streamline refinanced. This condition occurred
and loans that went into default before     because the indemnification agreements expired before
indemnification agreement expiration.       the indemnification agreement date, which happens
We recommend that HUD’s Office of           when the expiration date is based on the loan
Single Family Housing (1) extend the        endorsement date. As a result, HUD incurred losses of
indemnification agreements for 21 loans     $373,228 for 5 loans, and 16 loans had a potential loss
that were streamline refinanced and (2)     to HUD of approximately $1 million. The remaining
develop policies and procedures to          43 loans were either terminated or did not go into
ensure that indemnification agreements      delinquency before the indemnification agreement
are extended to all loans that are          expired, or the agreement did not state that it would
streamline refinanced.                      extend to loans that were streamline refinanced.
                           TABLE OF CONTENTS

Background and Objective                                                            3

Results of Audit
      Finding 1: HUD Did Not Always Bill Lenders for FHA Single-Family
                 Indemnification Losses                                              4
      Finding 2: HUD Did Not Always Ensure That Indemnification Agreements
                 Were Extended to FHA Loans That Were Streamline Refinanced         11

Scope and Methodology                                                               15

Internal Controls                                                                   17

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use                19
B.    Auditee Comments and OIG’s Evaluation                                         20
C.    Loss Summary for Loans Not Billed                                             25
D.    ACD Program Loans Not Billed                                                  26
E.    CWCOT Program Loans Not Billed                                                32
F.    Loans in Default and Not Billed                                               33
G.    Loans for Which the Indemnification Agreements Did Not Extend to Streamline
      Refinances                                                                    39




                                           2
                           BACKGROUND AND OBJECTIVE

The Federal Housing Administration (FHA) was created by Congress in 1934 and provides
mortgage insurance on loans made by FHA-approved lenders throughout the United States and
its territories. Under the FHA program, lenders bear less risk because FHA will pay a claim to
the lender in the event of a homeowner’s default; however, loans must meet certain requirements
established by FHA to qualify for insurance. Various sanctions exist that allow the U.S.
Department of Housing and Urban Development (HUD) Homeownership Centers and FHA the
flexibility to respond appropriately to any noncompliance action by a direct endorsement lender
or other program participant. One of the sanctions that the Homeownership Centers and the
Mortgagee Review Board may impose is indemnification agreements.

Under an indemnification agreement, the lender agrees to either abstain from filing an insurance
claim or reimburse FHA if a later holder of the mortgage files an insurance claim and FHA
suffers a financial loss disposing of the property. The term or duration of an indemnification
agreement varies according to the severity of the violation. Typically, the agreement is effective
for 5 years from the date of endorsement but may extend to the life of the loan. If a loan that is
covered under the agreement is streamline refinanced, the agreement extends to the new
mortgage. If the mortgage is sold to another lender that later files a claim for insurance benefits,
the lender that signed the indemnification agreement must repay HUD the amount covered by the
agreement.

Initially, HUD’s Single Family Claims Branch was responsible for recovering single-family
indemnification agreement debts; however, an Office of Inspector General (OIG) audit (audit
report 2004-DE-0001) recommended that the process be moved to HUD’s Financial Operations
Center. The Center is organized under the Office of Finance and Budget. All outstanding debts
and records were forwarded to the Center starting in October 2003, and as of July 1, 2004, the
Center had assumed full responsibility for servicing single-family indemnification agreement
debts. The Center billed lenders for 5,600 cases totaling $327.8 million from fiscal years 2004 to
2014 1 and has resolved 7,036 cases totaling $285.5 million (this amount includes cases billed by
the Single Family Claims Branch).

We selected to review HUD’s single-family indemnification recovery process because an
examination of data in HUD’s systems indicated that losses were not always recovered for
single-family loans that had indemnification agreements. The audit was also part of our goal to
protect the integrity of the FHA single-family insurance programs.

Our objective was to determine whether HUD had adequate controls in place to monitor
indemnification agreements and recover losses on FHA single-family loans.




1
    As of March 31, 2014


                                                 3
                                     RESULTS OF AUDIT

Finding 1: HUD Did Not Always Bill Lenders for FHA Single-Family
           Indemnification Losses
HUD did not always bill lenders for FHA single-family loans that had indemnification
agreements and losses to HUD. Specifically, it did not bill lenders for any loans that were part of
the Accelerated Claims Disposition (ACD) program or the Claims Without Conveyance of Title
(CWCOT) program or loans that went into default before the indemnification agreement expired
but were not in default on the expiration date. There were a total of 486 loans from January 2004
to February 2014 that had enforceable indemnification agreements and losses to HUD but were
not billed. This condition occurred because HUD’s Financial Operations Center was not able to
determine loss amounts for loans that were part of the ACD program, was not aware of the
CWCOT program, and considered the final default date for billing only. As a result, HUD did
not attempt to recover a loss of $37.1 million for 486 loans that had enforceable indemnification
agreements.



    HUD Did Not Bill Lenders for
    Enforceable Indemnification
    Agreements

                    From fiscal years 2004 to 2014, the Center billed lenders for 5,600 loans that
                    totaled $327.8 million; however, it did not bill lenders for all loans that had
                    enforceable indemnification agreements. Specifically, the Center did not bill
                    lenders for 8 percent (486 loans) of loans that had enforceable indemnification
                    agreements. The 486 loans consisted of 237 loans in the ACD program, 2 32 loans
                    in the CWCOT program, 3 and 217 loans that were in default before the
                    indemnification agreement 4 expired but were not in default on the expiration date.




2
  See appendix D.
3
  See appendix E.
4
  See appendix F.


                                                     4
                                               Fiscal year 2004 to fiscal year 2014
                                                                           Number of loans          Loss amount
                     Indemnified loans billed                                  5,600                $ 327,779,371
                     Indemnified loans not billed
                          ACD program                                             237                 22,381,768
                          CWCOT program                                            32                  2,234,925
                          Loans that went into default                            217                 12,490,032
                                       Total                                      486               $ 37,106,725
                     Total indemnified loans billed and not
                                                                                 6,086              $ 364,886,096
                     billed
                     Percentage of loans not billed                              8.0%                   10.2%


    HUD Did Not Bill Lenders for
    the Accelerated Claims
    Disposition Program

                  As part of the ACD program, HUD accelerates the claims on delinquent mortgage
                  notes and transfers them to a public-private joint venture for disposition. HUD
                  sells the note to a joint venture at a discounted price, and the joint venture then
                  manages the restructuring of the notes for securitization and sale or the
                  foreclosure and property sale of nonperforming loans.

                  There were 243 loans that were part of the ACD program from January 1, 2004,
                  to February 21, 2014, that had indemnification agreements; however, HUD did
                  not evaluate any of these loans for billing. HUD should have billed lenders for
                  237 of these loans because HUD had both losses and enforceable indemnification
                  agreements (see appendixes C and D). We were not able to determine the loss
                  amounts for three loans because there was no income and expense data in Single
                  Family Data Warehouse for these loans. 5 In addition, the indemnification
                  agreement was not enforceable for three loans. 6 HUD suffered a loss of $22.4
                  million for the 237 loans that were not evaluated for billing. Of the 237 loans,
                  150 were associated with active FHA lenders, 7 and 87 were associated with
                  terminated FHA lenders. Lenders that have been terminated are no longer
                  approved to participate in FHA mortgage insurance programs; however, the
                  lender may still be in business offering conventional mortgages. 8 There is no
                  language in the indemnification agreement that releases lenders from the
                  indemnification agreement if the lenders are terminated from the FHA program.


5
  Loans 412-4767940, 442-2462614, and 561-8450712
6
  The indemnification agreements were not enforceable for two loans because the loans did not go into default
before the indemnification agreement expired. For the third loan, the indemnification agreement stated that the loan
would be indemnified if there were any losses for a period of five years from the endorsement date. The loss for this
loan was more than five years from the endorsement date.
7
  According to the Single Family Data Warehouse as of April 2, 2014
8
  We did not determine whether lenders were bankrupt or out of business. During the billing process, the Center
will determine the operating status of lenders. The Center does not send demand letters to bankrupt lenders.


                                                         5
                                         ACD programs not billed
                                                     Number of loans         Loss amount
              Active FHA lenders                         150               $       13,228,554
              Terminated FHA lenders                      87                        9,153,214
                           Total                         237               $       22,381,768

           The Financial Operations Center Was Not Able To Determine the Loss for
           ACD Loans

           The Center was aware of the ACD program and attempted to determine the loss
           amounts for loans in the program; however, it was not able to conclude what the
           loss amounts were because the loans were sold in pools, HUD retained an equity
           interest in the loans, and the loss may have not be known until all of the loans in
           the pool had been resolved. According to the Center, since it was unable to
           determine the loss amounts, it was agreed within HUD that loans with
           indemnification agreements would not be included in the ACD program.
           However, loans with indemnification agreements were included in the ACD
           program.

           We were able to determine the loss amounts for loans in the ACD program with
           assistance from HUD’s Office of Financial Services and Office of Asset Sales.
           According to the Office of Asset Sales, HUD received two payments from the
           joint ventures from 2002 to 2006: an upfront payment at the time of loan
           settlement and a final disposition payment once the loan was resolved by the joint
           venture. However, after 2006, HUD did not sell loans again until 2010 and
           started collecting all proceeds in one lump sum at the time of loan sale settlement.
           Therefore, since all of the older loans from 2002 to 2006 had been resolved and
           HUD received one payment upfront, we were able to determine the loss amount
           for loans in the ACD program using data obtained from the Single Family Data
           Warehouse and a loss template provided by the Office of Financial Services.

HUD Did Not Bill Lenders for
the Claims Without
Conveyance of Title Program

           As part of the CWCOT program, lenders sell the properties that are secured by
           FHA mortgage insurance in a foreclosure sale instead of conveying the property
           to HUD. HUD then pays insurance benefits to the lenders if the sales price and
           other allowable costs are less than the unpaid principal balance.

           There were 35 loans that were part of the CWCOT program from January 1, 2004,
           to February 20, 2014, that had indemnification agreements; however, the Center
           did not evaluate any of these loans for billing. The Center should have billed
           lenders for 32 of these loans because HUD had losses and had enforceable
           indemnification agreements because the loans went into default before the


                                             6
                 indemnification agreements expired (see appendixes C and E). HUD had losses
                 of $2.2 million for the 32 loans that were not evaluated for billing 9. Of the 32
                 loans, 25 had lenders that were active FHA lenders. 10

                                                CWCOT programs not billed
                                                                      Number of loans          Loss amount
                    Active FHA lenders                                     25                 $     1,798,390
                    Terminated FHA lenders                                 7                          436,535
                                    Total                                  32                 $     2,234,925

                 The Financial Operations Center Was Not Aware of the CWCOT Program

                 The Center stated that it was not aware of the CWCOT program because HUD
                 initiated a pilot of the program in March 2013; however, there was no official
                 announcement of the program and the Center was not notified. It should have
                 been the responsibility of the Office of Single Family Housing to notify the
                 Center of the pilot program so that the Center could establish billing procedures
                 for loans that were part of the CWCOT program.

                 During the audit, the Center agreed that loans that were part of the CWCOT
                 program were billable loans and, as a result of the audit, agreed to evaluate these
                 claim types for billing and monitor future loans for billing. As of April 8, 2014,
                 the Center had billed lenders for 21 of the 32 loans identified and had recovered
                 $1.1 million for 15 loans.

     HUD Did Not Bill Lenders for
     Loans That Went Into Default
     During an Enforceable
     Indemnification Agreement

                 From the time the Center took over responsibility for FHA single-family
                 indemnifications to November 2013, there were 274 loans for which the Center
                 did not bill the lenders because it determined that the indemnification agreements
                 had expired. However, HUD should have billed the lenders for 217 of these loans
                 because the loans were either in default or went into default during the
                 indemnification agreement period (see appendixes C and F). There were 2 loans
                 that were in default when the indemnification agreement expired, and 215 loans
                 went into default before the indemnification agreement expired but were not in
                 default on the expiration date. Of the 217 loans, 98 loans were with FHA lenders
                 that were still active. 11



9
  The loss amounts were obtained from Single Family Data Warehouse as of February 20, 2014.
10
   According to the Single Family Data Warehouse as of April 2, 2014
11
   According to the Single Family Data Warehouse as of April 2, 2014


                                                      7
                                                  Loans not billed
                                                            Number of loans      Loss amount
                Active FHA lenders                               98            $       4,813,020
                Terminated FHA lenders                          119                    7,677,012
                      Total                                     217            $     12,490,032

             HUD Did Not Consider All Default Situations When Billing Lenders

             HUD did not bill lenders for loans that went into default before the
             indemnification agreements expired but were not in default on the expiration date
             because HUD considered only loans that were in default before the
             indemnification agreement expired. According to the Center, this practice was
             consistent with HUD’s practice before it transferred responsibility for collecting
             FHA single-family indemnification debts to the Center.

             Indemnification Agreement Language Reinforced Billing for Defaulted
             Loans

             For the loans reviewed, HUD used three different versions of the indemnification
             agreement.

                Period used                              Number of loans
                               The indemnification agreement stated the lender agreed to
                               indemnify HUD for losses which had been or may be incurred
                1989 - 2005
                               “where the loan goes into default within” the indemnification
                               agreement period.
                               The indemnification agreement stated, “…if the loan defaults
                1997 - 2000
                               within” the indemnification agreement period.
                               The indemnification agreement stated that lenders agreed to
                1996 - 2011    indemnify HUD for losses for loans, “which are in default, or go
                               into default” during the indemnification agreement period.

             Based on the language in each agreement, HUD should not only be billing lenders
             for loans that were in default when the agreement expired, but also for loans that
             entered into a default status at any time before the agreement expired even if the
             loans emerged from a default status when the agreement expired.

Conclusion

             The Center did not always bill lenders for FHA single-family loans that had both
             an enforceable indemnification agreement and losses to HUD. The Center did not
             bill lenders for 237 loans that were part of the ACD program, 32 loans that were
             part of the CWCOT program, or 217 loans that went into default before the
             indemnification agreement expired. HUD incurred losses of $37.1 million for
             these 486 loans, which had enforceable indemnification agreements.


                                              8
                                                   Loss summary
                                                           Number of loans         Loss amount
                ACD program
                  Active lenders                                  150         $        13,228,554
                  Terminated lenders                               87                   9,153,214
                       Subtotal                                   237         $        22,381,768
                CWCOT program
                  Active lenders                                  25           $        1,798390
                  Terminated lenders                               7                     436,535
                       Subtotal                                   32          $         2,234,925
                Loans that went into default
                  Active lenders                                   98         $         4,813,020
                  Terminated lenders                              119                   7,677,012
                       Subtotal                                   217         $        12,490,032
                              Total                               486          $       37,106,725



Recommendations

          We recommend that HUD’s Deputy Assistant Secretary for the Office of Finance
          and Budget

          1A.      Initiate the billing process, including determining lender status, for the 237
                   loans that were part of the ACD program for which the lenders were not
                   billed (see appendix D). HUD incurred losses of nearly $22.4 million for
                   these loans.

          1B.      Initiate the billing process, including determining lender status, for the 32
                   loans that were part of the CWCOT program for which the lenders were
                   not billed (see appendix E). HUD incurred losses of approximately $2.2
                   million for these loans.

          1C.      Initiate the billing process, including determining lender status, for the 217
                   loans that went into default before the indemnification agreement expired
                   for which the lenders were not billed (see appendix F). HUD incurred
                   losses of nearly $12.5 million for these loans.

          1D.      Determine the loss amounts for the three loans (412-4767940, 442-
                   2462614, and 561-8450712) that were part of the ACD program, which
                   OIG was unable to determine the loss, to be included in recommendation
                   1A above.




                                               9
We recommend that HUD’s Deputy Assistant Secretary for the Office of Finance
and Budget and Deputy Assistant Secretary for the Office of Single Family
Housing

1E.    Develop and implement postindemnification and billing policies and
       procedures to ensure that lenders are billed for loans that are part of the
       ACD and CWCOT programs.

1F.    Develop and implement postindemnification and billing policies and
       procedures to ensure that lenders are billed for loans that went into default
       during indemnification agreement period.

We recommend that HUD’s Deputy Assistant Secretary for the Office of Single
Family Housing

1G.    Develop and implement policies and procedures to ensure that it notifies
       the Financial Operations Center of any program changes that could impact
       the billing of FHA single-family lenders for losses related to enforceable
       indemnification agreements.




                                 10
Finding 2: HUD Did Not Always Ensure That Indemnification
           Agreements Were Extended to Loans That Were Streamline
           Refinanced
HUD did not ensure that indemnification agreements were extended to 64 of 2,078 loans that
were streamline refinanced with agreement dates from January 2000 to February 2014. This
condition occurred because the indemnification agreements expired before the indemnification
agreement date. 12 As a result, HUD did not attempt to recover losses of $373,228 for five loans
and paid a claim of $143,922 on one loan with a potential loss of $74,839. Also, 15 loans had an
unpaid balance of $1.7 million with a potential loss to HUD of $965,306 if the loans go into
claim status. The remaining 43 loans either had been terminated or did not go into delinquency
before the indemnification agreement expired.



     Agreements Should Extend to
     Loans That Are Streamline
     Refinanced

                 The standard operating procedures 13 for the Quality Assurance Division regarding
                 indemnifications stated that executed indemnification agreements were entered
                 into CHUMS (Computerized Homes Underwriting Management System). HUD
                 officials entered into CHUMS information about the indemnification agreement,
                 such as the agreement date, the term (length of agreement), and the lender to bill.
                 HUD officials also indicated whether the indemnification agreement was
                 transferable to future refinances. The standard operating procedures stated that
                 “yes” should be entered for this field and did not provide instances in which HUD
                 officials should enter “no.”

                 Most of the indemnification agreements reviewed starting on January 1, 2000,
                 stated that the agreement would extend to the new mortgage if any of the loans
                 included in the agreement were streamline refinanced. According to HUD
                 officials, the reason indemnification agreements should extend only to streamline
                 refinances and not conventional refinances was that a complete underwriting
                 review was conducted for conventional refinances so the significant issues that
                 caused the loan to be indemnified were considered in approving the loan for a
                 refinance.



12
   These indemnification agreements could expire before the indemnification agreement date because the expiration
date was sometimes based on the loan’s endorsement date. For example, loan 105-3224211 was endorsed on
January 15, 2008 and has an indemnification agreement that is dated May 29, 2013. The indemnification agreement
expired five years from the loans endorsement date. Therefore, the indemnification agreement expired on January
15, 2103, which is prior to the indemnification agreement date.
13
   The standard operating procedures was dated September 2011.


                                                       11
     HUD Did Not Always Extend
     Indemnification Agreements

                 There were 2,014 loans 14 with indemnification agreement dates from January
                 2000 to February 2014, for which the indemnification agreement properly
                 extended to loans that were streamline refinanced; however, there were 64 loans
                 with indemnification agreements that were streamline refinanced and the
                 agreement did not extend to the new loan.

                                        Indemnification agreement did not extend to
                                           loans that were streamline refinanced
                                       Agreement date                    Number of loans
                                        2000 to 2005                           44
                                           2006                                 9
                                           2011                                 3
                                           2013                                 8
                                           Totals                              64

                 We reviewed only 22 of the 64 loans because the remaining loans either had a
                 loss before 2004 (when the Center took over responsibility for billing FHA single-
                 family indemnifications), had been terminated, or had not gone into a default
                 status before the agreement expired. The indemnification agreements for 21 of
                 the 22 loans contained language stating that the agreements would extend to loans
                 that were streamline refinanced. Therefore, the indemnification agreements
                 should have extended to the new mortgages for these 21 loans that were
                 streamline refinanced, and the lender that signed the indemnification agreement
                 should have been responsible for following the terms of the agreement (see
                 appendixes C and G). Of the 21 loans, 18 had lenders that were active FHA
                 lenders. 15




14
   This information was based on a review of the indemnification agreement information in the Single Family Data
Warehouse.
15
   According to the Single Family Data Warehouse as of April 2, 2014


                                                       12
                                            Indemnification agreements not extended
                                                                           Claim          Potential       Actual
                                       Number of          Unpaid
                                                                           paid 16           loss           loss
                                         loans            balance
                                                                                          (52%) 17        amount
       Active FHA lenders                   18         $ 1,727,995         $143,922      $ 973,397       $ 295,757
       Terminated FHA lenders                3             128,362                -            66,748        77,471
             Total                          21         $ 1,856,357         $143,922      $ 1,040,145     $ 373,228



     Indemnification Agreements
     Expired Before the Agreement
     Date

                  HUD officials stated that there was a “fix” in CHUMS in 2012, and they had also
                  changed from CHUMS to FHA Connection for entering indemnification
                  agreements because, according to HUD officials, there was a flaw in CHUMS in
                  transferring the streamline refinance flag to the new loans.

                  For seven of the eight loans in 2013, the indemnification agreements expired
                  before the agreement date because the expiration date was based on the loans’
                  endorsement date. All of the 65 loans (with agreement dates in 2013), for which
                  the indemnification agreement properly extended to loans that were streamline
                  refinanced, had expiration dates before the agreement date. HUD officials
                  confirmed that FHA Connection was not programmed to look for future
                  refinances after the indemnification agreement had expired. They also stated that
                  the remaining indemnification agreement in 2013 did not extend to the new loan
                  because the streamline refinance was not properly coded.

     Conclusion

                  Because the indemnification agreements expired before the agreement date, the
                  agreements were not extended to the new mortgages for 64 loans that were
                  streamline refinanced; however, 43 of these loans either had a loss before 2004
                  (when the Financial Operations Center took over responsibility for billing single-
                  family indemnifications), had been terminated, or had not gone into a default
                  status before the agreement expired or the agreement did not state that it would be
                  extended. Of the remaining 21 loans, HUD had a loss for 5 loans, 15 were active
                  loans, and HUD paid a claim on 1 loan but the loss had not been realized. 18 The

16
   For one loan for which HUD paid a claim but the loss had not been realized as of April 30, 2014, with a potential
loss of $74,839. The loss will be realized when the property that was conveyed to HUD is sold.
17
   The potential loss is based on FHA’s 52 percent loss severity rate multiplied by the unpaid balance for 15 loans
and the claim paid for 1 loan that the loss had not been realized as of April 30, 2014. The 52 percent loss rate was
the average loss on FHA-insured foreclosed-upon properties based on HUD’s Single Family Acquired Asset
Management System’s “case management profit and loss by acquisition” for the first quarter of fiscal year 2014.
18
   As of April 30, 2014


                                                         13
                 claim had a potential loss to HUD of $74,839. As a result, HUD incurred losses
                 of $373,228 for five loans and paid a claim of $143,922 on one loan. Also, 15
                 loans had an unpaid balance of $1.9 million with a potential loss to HUD of
                 $965,306 if the loans go into claim status.

     Recommendations

                 We recommend that HUD’s Deputy Assistant Secretary for the Office of Single
                 Family Housing

                 2A.      Extend the indemnification agreement for the five loans (see appendix G)
                          with a loss to HUD that were streamline refinanced.

                 2B.      Extend the indemnification agreement for the 15 active loans and 1 claim
                          loan that were streamline refinanced (see appendix G for the list of loans).
                          The 15 active loans had an unpaid balance of nearly $1.9 million with a
                          potential loss to HUD of $965,306 if the loans go into claim status 19. The
                          one claim loan had an estimated loss of $74,839. 20

                 2C.      Develop and implement policies and procedures to ensure that
                          indemnification agreements are extended to all loans that are streamline
                          refinanced.

                 We recommend that HUD’s Deputy Assistant Secretary for the Office of Finance
                 and Budget

                 2D.      Initiate the billing process for the five loans with losses to HUD that were
                          streamline refinanced. HUD incurred losses of $373,228 for these loans.




19
   The unpaid balance column total in Appendix G includes the unpaid balance ($1,856,357) for the 15 active loans
and the claim amount ($143,922) for the 1 claim loan in which the loss had not been realized ($1,856,357 +
$143,922 = $2,000,279)
20
   The estimated loss is based on FHA’s 52 percent loss severity rate multiplied by claim paid.


                                                       14
                            SCOPE AND METHODOLOGY

We chose to review HUD’s single-family indemnification recovery process because an OIG
examination of data in HUD’s systems indicated that losses were not always recovered for FHA
single-family loans that had indemnification agreements. Our audit period covered loans with
indemnification agreements that expired starting on January 1, 2000. 21 We performed our
fieldwork from November 2013 to May 2014 at the Financial Operations Center in Albany, NY,
the Office of Financial Services in Washington, DC, and the Quality Assurance Division in
Washington, DC.

To accomplish our objective, we

     •   Reviewed applicable HUD regulations, requirements, and internal procedures;

     •   Interviewed appropriate management and staff at the Financial Operations Center, Office
         of Financial Services, and Quality Assurance Division;

     •   Determined loss amounts for 237 loans in the ACD program using data obtained from
         HUD’s Single Family Data Warehouse; and

     •   Reviewed indemnification agreements for 507 loans (that we determined were billable).

For our review of the loans in the ACD and CWCOT programs, we used data maintained by
HUD in its Single Family Data Warehouse to identify all loans that had an indemnification
agreement 22 and claims that were part of these programs (claim types 02 and 06). There were
596 and 43 loans, respectively, with claim dates ranging from April 1985 to February 2014. We
narrowed our universe by identifying all of the loans with claim dates on or after January 1, 2004
(which is the approximate date of when the Center took over responsibility for servicing single-
family indemnification agreement debts). There were 243 and 35 loans, respectively, during this
period.

To determine whether the indemnification agreements extended to all loans that were streamline
refinanced, we used HUD’s Single Family Data Warehouse 23 to identify all loans that had an
indemnification agreement that expired starting on January 1, 2000. There were 37,153 loans
during this period, and 2,601 of these loans were streamline refinanced. We narrowed our
universe by identifying all of the loans with indemnification agreement dates on or after January
1, 2000, because we determined that most of the agreements after this date contained language
that extended the agreement to loans that were streamline refinanced. Of the 2,601 loans that
were streamline refinanced, 2,289 had agreement dates on or after January 1, 2000. According
to the Single Family Data Warehouse, the indemnification agreements extended for 2,014 loans
and did not extend for 64 loans.
21
   As of February 14, 2014, which is the date when the data were obtained from the Single Family Data Warehouse
22
   As of February 21, 2014, for the ACD program and February 20, 2014, for the CWCOT program
23
   The Single Family Data Warehouse is a large collection of database tables organized and dedicated to support
analysis, verification, and publication of FHA single-family housing data.


                                                      15
                                   Streamline refinance review
                                                                                    Loans
      Indemnification agreement expiration dates starting on January 1, 2000:
          - Not streamline refinanced                                               34,552
          - Streamline refinanced                                                    2,601
                                                                                    37,153
      Of the 2,601 streamline refinanced loans:
           - Agreement dates before January 1, 2000 (or no date)                     312
           - Agreement on or after January 1, 2000                                  2,289
                                                                                    2,601
      Of the 2,289 loans with agreement dates on or after January 1, 2000:
           - Indemnification agreement extended to loans that were streamline
                                                                                    2,014
             refinanced
           - Indemnification agreement expired before the loan was refinanced        177
           - Indemnification agreement did not extend to loans that were
                                                                                      64
             streamline refinanced
           - Indemnification agreement of streamline refinanced loan did not
                                                                                      34
             match the prior loan
                                                                                    2,289

For our review of the loans for which the Center did not bill because it determined that the
indemnification agreement had expired, we identified all of the loans that were not billed
because the agreements had expired on its spreadsheet that tracks all of the loans evaluated for
billing. There were 274 loans that were not billed because the Center had determined that the
indemnification agreements had expired.

In addition, we used the Single Family Data Warehouse to obtain the loss amounts, the unpaid
mortgage balances for each of the loans (as of February 14, 2014), and the lender’s FHA status.
For the loans in the ACD program, the loss amounts were calculated using data from the Single
Family Data Warehouse and a loss template provided by the Office of Financial Services.

To assess the reliability of data obtained from the Single Family Data Warehouse, we obtained
and reviewed the hardcopy indemnification agreements from the Center and compared the
agreement and expiration dates to the data obtained from the Single Family Data Warehouse.
We determined that the indemnification agreement expiration dates entered into the Single
Family Data Warehouse were not sufficiently reliable; therefore, we obtained the hardcopy
indemnification agreements for all of the loans we reviewed to determine whether they were
enforceable.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.



                                                16
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  •   Controls intended to ensure that lenders are billed for all loans that have
                      single-family indemnification losses.
                  •   Controls intended to ensure that indemnification agreements are extended to
                      all loans that are streamline refinanced.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 17
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                •   HUD did not have adequate controls to ensure that lenders were billed for all
                    loans that had enforceable single-family indemnification losses (finding 1).
                •   HUD did not have adequate controls to ensure that indemnification
                    agreements were extended to all loans that were streamline refinanced
                    (finding 2).




                                              18
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

       Recommendation                                           Funds to be put to
                                     Ineligible 1/
           number                                                 better use 2/
             1A                       $22,381,768
             1B                         2,234,925
             1C                        12,490,032
             2B                                                      $1,040,145
             2D                           373,228
                                      $37,479,953                    $1,040,145


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations. In this instance, the ineligible costs are HUD’s actual losses for
     491 loans that had an enforceable indemnification agreement but were not billed (see
     finding 1 and appendixes D through G). The losses resulted when the properties (or
     notes) that secured these loans were sold and the insurance claims and other expenses
     incurred by HUD exceeded the sales proceeds.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified. In this
     instance, implementation of recommendation 2B to extend the indemnification
     agreements for the 15 active loans and 1 claim loan that had an agreement and were
     streamline refinanced will reduce FHA’s risk of loss to the insurance fund ($965,306 +
     $74,839 = $1,040,145). The amount noted reflects HUD’s calculation that FHA loses an
     average of 52 percent of the unpaid principal balance when it sells a foreclosed-upon
     property (see the potential loss to HUD in appendix C). The 52 percent loss rate is based
     on HUD’s Single Family Acquired Asset Management System’s “case management
     profit and loss by acquisition” computation for the first quarter of fiscal year 2014 based
     on actual sales.




                                             19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 2




                         20
Comment 1




Comment 3




Comment 1




            21
Comment 1




Comment 3




Comment 1




Comment 1




            22
Comment 1




Comment 1




Comment 1




            23
                         OIG Evaluation of Auditee Comments

Comment 1   We acknowledge that the Office of Housing has agreed to implement
            recommendations 1A, 1B, 1D, 1E, 1G, 2A, 2B, 2C, and 2D and has identified
            actions that it plans take; however, this does not constitute final resolution of the
            recommendations.

Comment 2   We agree that the indemnified loans identified as part of recommendation 1A
            could be impacted by previous lender settlements with HUD. Identifying any
            impacted loans was outside the scope of our review and HUD should do that
            during the audit resolution process, and initiate billing for the appropriate loans,
            accordingly.

Comment 3   We acknowledge the Office of Housing’s assessment that 217 loans identified
            under recommendation 1C did not meet the Center’s current policy for billing,
            indicating that their policy was a long-standing practice; however, the policy is
            not consistent with the language of the indemnification agreements reviewed.
            Therefore, as concluded in the audit report, HUD should not only be billing
            lenders for loans that were in default when the indemnification agreement
            expired, but also for loans that entered into a default status at any time before the
            agreement expired even if the loans were current when the agreement expired.
            All of the loans identified under recommendation 1C had an enforceable
            indemnification agreement and should be billed appropriately. Of the 217 loans,
            2 were in default when the agreement expired and 215 loans went into default
            before the agreement expired.

            We agree with the Office of Housing’s commitment to reevaluate their
            indemnification expiration policy used by the Center, ensuring a more consistent
            billing process.




                                              24
   Appendix C

                  LOSS SUMMARY FOR LOANS NOT BILLED

                                              Unpaid
                              Number
      Deficient area                         mortgage       Claim paid    Loss amount      Potential loss
                              of loans
                                             balance
ACD program                     237      $              -   $         -   $   22,381,768 $              -
CWCOT program                    32                     -             -        2,234,925                -
Loans in default not billed     217                     -             -       12,490,032                -
Agreements not extended          21             1,856,357       143,922          373,228        1,040,145
         Totals                 507      $      1,856,357 $     143,922   $   37,479,953   $    1,040,145




                                                    25
   Appendix D

                             ACD PROGRAM LOANS NOT BILLED

                                                                Oldest unpaid
                   Refinanced      Expiration      Default                                                            Lender
 Case number                                            24       installment     Claim date       Loss amount
                  case number        date          date                                                               status 25
                                                                     date
011-5695332            n/a          03/11/13      08/01/08        07/01/10        11/10/12          101,709              A
022-1759014            n/a          10/21/09      03/01/04        08/01/04        08/08/05           25,286              T
022-2215202            n/a          09/29/15      12/01/10        01/01/12        07/29/13           44,569              A
023-1721755            n/a          02/08/11      05/01/04        08/01/04        09/11/04           21,161              T
023-1738902            n/a          05/25/10      05/01/04        05/01/04        09/02/04           28,148              T
023-1915912            n/a          02/08/11      06/01/04        08/01/04        12/09/04           18,540              T
023-1962637            n/a          04/21/10      07/01/04        07/01/04        11/12/04           12,257              T
023-3543512            n/a          08/14/14      09/01/09        08/01/11        09/29/12          130,369              A
048-6345662            n/a          12/30/15      03/01/11        04/01/11        05/25/13           19,432              A
052-2253638            n/a          01/26/11      06/01/05        06/01/05        10/08/05           37,843              A
052-2872156            n/a          02/06/11      12/01/03        12/01/03        04/15/04           69,758              T
052-2939661            n/a          02/06/11      12/01/03        02/01/04        06/17/04           64,457              T
052-3257399            n/a          03/04/09      09/01/04        09/01/04        12/30/04           70,819              T
052-3497695            n/a          02/06/11      11/01/04        11/01/04        05/01/05           33,324              A
052-3549973            n/a          07/28/11      02/01/05        03/01/05        05/21/05           56,659              T
061-2742606            n/a          08/30/10      05/01/04        05/01/04        01/30/05           47,969              T
071-0968687            n/a          01/05/09      11/01/04        11/01/04        02/27/05           17,895              A
081-0741091            n/a          02/07/11      09/01/04        09/01/04        01/31/05          114,150              T
081-0766201            n/a          11/25/33      04/01/04        04/01/04        08/13/04           12,286              A
081-0841113            n/a          08/12/13      09/01/08        08/01/10        02/02/14           97,380              A
091-3624571            n/a          06/27/10      07/01/03        07/01/03        01/15/04           39,687              A
091-3651502            n/a          06/27/10      10/01/03        10/01/03        05/20/04           19,823              A
091-3693706            n/a          06/27/10      10/01/03        12/01/03        02/27/04           30,001              A
091-3711494            n/a          06/27/10      09/01/03        09/01/03        03/14/04           52,893              A
091-3900463            n/a          05/08/11      01/01/05        02/01/05        05/15/05           30,100              T
091-4388275            n/a          05/23/13      02/01/09        07/01/10        01/12/14          127,733              A
092-8612669            n/a          10/08/08      10/01/01        11/01/09        08/03/13           37,694              A
092-9308470            n/a          04/04/11      11/01/03        09/01/04        12/16/04           11,313              T
092-9458419            n/a          07/26/09      11/01/03        08/01/04        07/11/05           18,332              T
093-6246238            n/a          01/28/38      12/01/09        05/01/11        07/21/13          102,314              T
093-6609919            n/a          05/08/14      04/01/10        06/01/10        03/15/12          129,752              A
094-4821809            n/a          04/19/10      07/01/04        07/01/04        07/03/05            3,651              T
095-1394738            n/a          11/09/39      12/01/09        08/01/11        06/02/13           85,129              T
095-1739384            n/a          01/03/16      05/01/11        02/01/12        10/07/12           96,393              A
095-2017673            n/a          05/12/16      06/01/11        04/01/12        09/29/12           66,681              A
 101-8337425           n/a          08/13/03      01/31/99        06/01/04        08/11/05           29,791              T

   24
      Either the first unpaid default date (if earlier than the expiration date) or the open default status date. The open
   default status date is the status date that was submitted to the Single Family Default Monitoring System for the loan.
   25
      A = active; T = terminated


                                                             26
                                                     Oldest unpaid
               Refinanced   Expiration   Default                                                Lender
Case number                                   24      installment    Claim date   Loss amount
              case number     date       date                                                   status 25
                                                          date
101-8597863       n/a       06/08/04     03/31/00        12/01/11    12/29/13       33,143         T
101-8654297       n/a       03/17/05     09/30/00        06/01/04    07/23/05       19,888         T
105-1044523       n/a       05/25/10     09/01/03        06/01/04    09/15/05       41,038         T
105-3449057       n/a       05/01/38     11/01/08        11/01/12    09/08/13       44,889         A
121-2105509       n/a       07/22/33     10/01/03        10/01/03    12/16/04       34,200         A
121-2189465       n/a       11/18/10     12/31/04        11/01/04    06/25/05       14,227         T
132-1596311       n/a       06/27/10     09/01/03        09/01/03    02/12/04       15,330         A
132-2448600       n/a       03/22/15     06/01/10        03/01/11    08/15/13       61,323         A
137-0618201       n/a       07/14/08     02/01/02        10/01/10    09/09/13       82,038         A
137-1529239       n/a       06/27/10     10/01/03        10/01/03    03/05/04       29,565         A
137-1955494       n/a       01/21/10     05/01/03        12/01/09    07/15/13       31,826         T
137-2058418       n/a       06/27/10     08/01/03        09/01/03    12/18/04       26,452         A
137-2086510       n/a       06/27/10     09/01/03        09/01/03    12/11/04       47,516         A
137-3381608       n/a       03/07/11     10/01/08        01/01/10    09/01/13      114,284         T
137-3643257       n/a       06/15/12     09/01/08        03/01/10    12/05/13       62,531         A
137-3695799       n/a       11/12/12     02/01/08        11/01/10    09/01/13      184,822         A
137-3727045       n/a       10/01/12     12/01/07        02/01/11    05/24/13      155,223         T
137-4017603       n/a       06/18/38     08/01/08        02/01/10    10/16/11      228,883         A
137-4392297       n/a       12/11/38     10/01/09        11/01/09    05/08/11      210,901         A
137-4468349       n/a       01/14/39     01/01/10        02/01/10    08/22/11      124,480         A
137-4595306       n/a       03/20/14     10/01/09        11/01/10    12/14/12      173,233         A
137-5206014       n/a       12/22/14     02/01/10        04/01/10    11/24/13      222,207         A
137-5532653       n/a       03/17/15     07/01/10        10/01/10    12/14/12      152,908         A
137-5707411       n/a       05/13/15     07/01/10        07/01/10    01/21/13      354,121         A
137-5792688       n/a       12/16/15     05/01/11        01/01/12    07/15/13       99,962         A
137-6409728       n/a       01/24/17     02/01/12        05/01/12    09/02/13       84,764         A
151-6638940   151-7166018   08/12/09     07/01/04        03/01/13    01/06/14       56,515         A
151-7591004       n/a       10/30/11     09/01/04        09/01/04    01/14/05       64,600         T
151-7853397   151-8605939   07/27/10     05/01/10        03/01/12    07/01/13       52,663         A
161-2057177       n/a       07/29/10     03/01/04        04/01/04    03/21/05       42,371         A
161-2999992       n/a       05/11/16     06/01/11        11/01/11    07/18/13       30,714         A
181-2581870       n/a       05/19/15     07/01/10        07/01/10    09/07/13       43,170         A
182-0827009       n/a       12/12/11     07/01/07        12/01/10    06/01/13       77,536         A
221-3110968       n/a       01/10/05     09/30/00        06/01/12    04/25/13       56,849         A
221-3501664       n/a       02/14/11     01/01/04        06/01/04    05/20/05       19,133         T
221-4438597       n/a       08/05/15     12/01/10        07/01/11    11/10/13       70,795         A
221-4614006       n/a       01/24/16     02/01/11        07/01/12    07/29/13       57,789         A
241-8212969       n/a       07/16/13     08/01/08        09/01/09    01/18/14      159,826         A
241-8369993       n/a       12/31/13     02/01/09        11/01/10    07/09/12      256,436         A
241-8720629       n/a       06/29/14     11/01/09        09/01/10    10/23/11      218,486         A
241-8863920       n/a       09/23/14     11/01/10        04/01/12    01/06/14       48,008         A
241-8048302   241-8982342   12/08/13     05/01/10        01/01/11    12/23/13       70,884         A
261-8380314       n/a       02/24/10     08/01/03        12/01/04    03/06/05       29,444         A
261-8485988       n/a       07/06/09     02/01/04        08/01/04    07/14/05       22,826         T
261-8597097       n/a       01/12/09     02/01/05        02/01/05    03/25/06       65,900         T
281-2639246       n/a       04/28/04     11/30/99        06/01/04    10/08/04       25,642         T



                                                    27
                                                     Oldest unpaid
               Refinanced   Expiration   Default                                                Lender
Case number                                   24      installment    Claim date   Loss amount
              case number     date       date                                                   status 25
                                                          date
292-4322685       n/a       04/06/11     12/01/03        12/01/03    03/25/04       18,648         A
292-4414985       n/a       04/06/11     09/01/04        09/01/04    01/14/05       27,898         A
292-4419136       n/a       11/14/11     07/01/04        07/01/04    12/06/04       31,467         T
292-5149597       n/a       12/16/38     02/01/09        10/01/09    12/23/13       82,728         A
321-2484573       n/a       12/22/12     05/01/08        12/01/10    11/11/12       66,328         A
332-4034164       n/a       03/15/10     01/01/04        01/01/04    05/20/04       27,575         T
332-4569667       n/a       05/23/13     07/01/08        07/01/08    05/13/13      207,788         T
332-4646174       n/a       11/14/13     04/01/09        01/01/10    12/23/13      143,394         A
332-4675998       n/a       09/11/13     12/01/11        12/01/11    01/31/14       87,097         A
332-4687921       n/a       10/08/13     09/01/10        09/01/10    01/18/14       44,045         T
351-4183460       n/a       04/27/09     10/01/02        10/01/03    06/06/05       15,509         A
351-4354466       n/a       10/17/08     03/01/04        03/01/04    02/10/05        9,008         A
351-4385883       n/a       05/02/08     07/01/03        03/01/05    10/07/05        8,398         A
351-4459934       n/a       04/05/10     04/01/04        04/01/04    08/12/04       17,593         T
351-4496972       n/a       11/19/08     09/01/05        07/01/08    09/06/13       80,792         A
351-4618114       n/a       06/23/09     10/01/04        04/01/05    02/17/05       12,942         A
351-4623245       n/a       08/12/09     12/31/04        11/01/04    03/20/05       33,429         T
351-4640295       n/a       11/02/10     11/01/04        11/01/04    09/24/05       30,492         T
351-4684808       n/a       02/11/35     02/01/06        06/01/11    11/16/13       50,313         T
351-4687211       n/a       08/15/35     04/01/07        05/01/09    09/06/13       40,131         T
351-4740533       n/a       10/04/11     04/01/06        10/01/11    06/13/13      144,420         T
351-4846379       n/a       12/12/11     04/01/07        09/01/11    01/27/14      106,149         A
351-4881489       n/a       04/06/12     06/01/07        03/01/09    10/09/10       80,403         A
351-4885649       n/a       05/09/12     06/01/07        05/01/10    05/23/13      154,006         T
351-4898432       n/a       07/11/12     07/01/07        06/01/10    11/16/13      102,489         T
351-5381836       n/a       04/28/14     06/01/09        06/01/12    01/12/14       91,554         A
351-5999718       n/a       01/14/16     04/01/11        08/01/11    09/19/13       78,445         A
352-5160009       n/a       05/31/10     05/01/04        05/01/04    04/15/05       87,020         T
352-5171660       n/a       05/31/10     08/31/04        08/01/04    09/18/05      156,147         T
352-5369987       n/a       11/21/11     11/01/08        05/01/10    01/26/14      286,840         T
352-5454143       n/a       02/02/11     04/01/06        12/01/08    09/06/13      178,893         T
352-5457871       n/a       11/27/11     10/01/06        07/01/09    06/02/13      354,721         A
352-5497631       n/a       03/14/12     04/01/07        12/01/08    05/24/13      254,070         T
352-5586675       n/a       08/09/12     08/01/07        08/01/07    11/05/12      641,325         T
352-5590208       n/a       08/09/12     01/01/08        09/01/08    11/04/12      421,243         T
352-5628943       n/a       11/27/12     06/01/08        10/01/08    09/27/13      154,983         T
352-5644437       n/a       03/24/13     08/01/08        10/01/08    05/24/13      347,490         A
352-5647932       n/a       04/02/13     04/01/08        10/01/10    01/31/14      131,722         A
352-5670312       n/a       05/12/13     10/01/08        10/01/08    10/05/13      445,475         T
352-5606019   352-5720947   05/04/14     06/01/08        03/01/10    12/20/13      186,442         T
352-5616124   352-5759347   12/27/12     03/01/09        02/01/11    01/30/14      151,700         A
352-6050094       n/a       03/31/14     08/01/09        02/01/10    09/26/13      211,652         A
352-5643880   352-6054277   12/26/12     03/01/12        08/01/12    01/05/14      396,472         T
352-6390520       n/a       07/20/14     09/01/09        04/01/11    01/13/14      227,562         A
352-6513260       n/a       10/14/14     02/01/10        03/01/12    12/06/13      193,885         A
352-6703974       n/a       02/08/15     03/01/10        03/01/10    05/12/13      223,020         A



                                                    28
                                                     Oldest unpaid
               Refinanced   Expiration   Default                                                Lender
Case number                                   24      installment    Claim date   Loss amount
              case number     date       date                                                   status 25
                                                          date
352-6866555       n/a       06/25/15     09/01/10        03/01/12    10/05/13       88,205         A
352-6947931       n/a       11/08/15     01/01/11        03/01/11    09/21/13      220,453         A
352-6752418   352-7118668   04/27/15     05/01/11        07/01/11    10/11/13      153,289         T
352-7174653       n/a       08/05/41     10/01/11        10/01/11    09/29/12       82,664         A
371-2837126       n/a       06/16/05     10/31/00        06/01/04    09/22/05        9,736         A
371-3165547       n/a       08/30/10     08/01/03        06/01/04    03/06/05        7,892         T
371-3243122       n/a       05/06/10     09/01/03        09/01/03    02/09/04       30,272         A
371-3717179       n/a       12/26/12     01/01/08        05/01/11    04/18/13       33,907         A
372-2735798       n/a       01/27/03     09/30/98        08/01/04    12/10/04        8,152         T
372-3283040       n/a       07/11/10     03/01/04        06/01/04    09/20/04       26,495         T
372-3886121       n/a       04/24/39     09/01/11        12/01/12    01/05/14       74,121         T
374-4053374       n/a       07/30/09     08/01/03        08/01/03    05/24/04       66,992         T
374-4189929       n/a       05/14/08     09/01/03        10/01/03    08/15/04      124,832         T
374-4236696       n/a       08/01/08     09/01/03        09/01/03    05/24/04       99,733         T
374-4240474       n/a       10/27/10     12/01/03        12/01/03    04/16/04       74,127         T
374-4297672       n/a       10/16/08     03/01/04        09/01/04    09/25/05       16,977         T
374-4450438       n/a       01/19/10     10/01/08        02/01/09    12/08/13      259,213         T
374-4595283       n/a       03/27/12     09/01/07        04/01/12    08/22/13      325,263         T
374-4620365       n/a       01/12/13     02/01/08        04/01/08    11/17/12      317,147         A
374-4809802       n/a       09/30/38     11/01/08        11/01/08    09/09/13      306,643         T
374-4884169       n/a       09/04/13     02/01/09        05/01/09    08/10/13      296,474         T
374-4907638       n/a       02/12/14     03/01/09        03/01/09    10/26/12      579,650         A
374-4919150       n/a       03/19/14     03/01/09        04/01/09    08/15/13      320,442         A
374-4964714       n/a       06/18/14     09/01/09        11/01/09    08/12/13      394,246         T
374-5039890       n/a       06/01/14     01/01/10        03/01/10    01/10/14      180,424         A
374-5193285       n/a       06/30/14     06/01/10        01/01/12    02/03/14      284,985         T
374-5313170       n/a       10/01/14     02/01/10        08/01/10    04/04/11      155,328         A
374-5634529       n/a       05/04/15     07/01/10        10/01/11    06/01/13      305,546         A
374-5838647       n/a       10/19/15     12/01/10        10/01/11    08/10/13      166,707         A
411-3450070       n/a       12/14/10     05/01/04        08/01/10    07/15/13       61,980         T
411-3622036       n/a       05/18/10     03/01/04        03/01/04    02/28/05       62,015         A
411-4059116       n/a       11/06/12     03/01/08        05/01/08    07/01/13      207,492         T
412-4728809       n/a       01/26/11     02/01/02        12/01/04    05/15/05       30,839         A
412-5570684       n/a       06/15/12     11/01/07        08/01/11    07/04/13      109,758         A
412-5621632       n/a       12/04/12     11/01/07        07/01/11    06/02/13       90,212         T
412-5626912       n/a       11/14/12     06/01/08        11/01/08    05/23/13       52,310         T
412-5699541       n/a       03/27/13     04/01/08        05/01/09    05/05/13       83,985         A
413-4038917       n/a       01/31/08     09/01/03        09/01/03    02/12/04       33,099         A
413-4166744       n/a       05/18/10     03/01/04        03/01/04    02/28/05       65,596         A
413-4236092       n/a       05/18/10     12/01/03        12/01/03    05/23/04       31,767         A
421-3853130       n/a       01/26/11     02/28/03        05/01/05    10/27/05       40,511         A
421-3892855       n/a       03/05/33     09/01/03        09/01/03    02/15/04       22,270         A
421-3896317       n/a       02/24/33     12/01/03        12/01/03    03/18/04       17,412         A
421-3999019       n/a       10/07/10     09/01/04        09/01/04    01/02/05       15,018         A
421-4066314       n/a       01/23/12     06/01/05        06/01/05    11/07/05       67,056         T
421-4375395       n/a       05/28/13     08/01/08        02/01/09    11/16/13       64,431         A



                                                    29
                                                     Oldest unpaid
               Refinanced   Expiration   Default                                                Lender
Case number                                   24      installment    Claim date   Loss amount
              case number     date       date                                                   status 25
                                                          date
421-4536402       n/a       03/16/14     05/01/09        06/01/09    07/27/13       66,576         A
422-2623457       n/a       01/26/10     06/01/04        06/01/04    11/13/04       15,669         T
441-6779241       n/a       08/04/09     03/01/03        11/01/03    04/15/04       14,966         A
441-6881818       n/a       03/22/10     01/01/04        02/01/04    04/24/04       11,415         A
441-6908180       n/a       08/16/10     06/01/04        07/01/04    09/06/04       10,636         A
441-7028574       n/a       02/07/10     02/01/03        06/01/03    05/21/04       14,832         A
441-7189755       n/a       10/27/11     04/01/04        05/01/04    03/20/05       13,250         A
441-7254705       n/a       06/27/10     10/01/03        10/01/03    12/11/04       29,440         A
441-7338279       n/a       05/24/11     03/01/04        04/01/04    10/22/05       93,634         A
441-7409267       n/a       05/24/11     05/01/04        05/01/04    09/16/04       16,826         A
441-7432986       n/a       10/12/11     05/01/04        02/01/05    12/24/05       16,360         T
441-7455284       n/a       01/11/12     07/01/04        07/01/04    03/07/05       12,970         A
441-7475158       n/a       05/24/11     10/01/04        02/01/05    06/16/05       28,713         A
441-8160475       n/a       04/09/13     07/01/08        05/01/10    12/08/13       50,241         A
441-9655917       n/a       03/05/40     06/01/10        06/01/10    08/12/13       87,508         A
442-2440523       n/a       10/12/11     01/01/05        01/01/05    05/05/05       22,518         T
442-2449653       n/a       10/12/11     07/01/05        07/01/05    12/08/05       41,618         T
446-0419123       n/a       10/20/15     01/01/11        03/01/11    05/19/13       91,453         A
446-0622970       n/a       07/18/16     11/01/11        11/01/11    11/19/12      109,051         A
451-1105688       n/a       09/22/15     10/01/10        11/01/10    05/27/12      148,263         A
461-3658004       n/a       11/30/09     07/01/03        07/01/03    07/12/04       40,335         A
461-3785070       n/a       06/16/33     11/01/03        08/01/04    01/31/05       68,534         A
461-4190864       n/a       02/01/13     02/01/08        11/01/08    07/14/13      116,674         A
481-2920224       n/a       04/27/14     07/01/09        01/01/12    02/01/14       80,528         A
483-3654829   483-4159574   11/02/11     09/01/09        11/01/10    01/17/14       87,271         T
491-7775664       n/a       02/28/33     07/01/03        07/01/03    05/20/04       77,873         A
491-7788198       n/a       01/24/33     04/01/03        08/01/03    02/06/04       29,440         A
491-7797857       n/a       03/27/33     03/01/03        11/01/03    04/03/04       32,015         A
491-7817265       n/a       08/15/10     09/01/04        10/01/04    12/17/04       56,780         A
491-8214326       n/a       03/05/34     12/31/04        01/01/05    02/10/05       70,689         A
491-8226744       n/a       11/24/08     10/01/04        02/01/05    06/10/05       50,504         A
491-8254653       n/a       08/26/10     06/01/04        07/01/04    09/17/04       26,064         A
491-9639290       n/a       09/16/14     11/01/09        10/01/12    01/03/14      118,640         A
492-6627669       n/a       01/03/12     10/01/04        10/01/04    02/20/05       64,851         A
492-6652845       n/a       09/06/10     11/01/03        11/01/03    11/13/04       23,718         T
492-6693879       n/a       04/07/11     05/01/04        05/01/04    09/02/04       30,567         A
492-6783078       n/a       05/15/08     06/01/04        06/01/04    10/22/04       55,655         A
492-6854434       n/a       04/14/11     01/01/04        12/01/03    04/03/04       53,020         A
492-6896014       n/a       10/22/08     12/01/03        12/01/03    04/11/04       36,704         A
492-6943572       n/a       09/15/08     05/01/04        05/01/04    09/11/04       62,620         A
492-6957751       n/a       11/17/33     03/01/04        05/01/04    09/05/04       47,174         T
492-7252860       n/a       01/30/12     12/01/04        12/01/04    04/17/05       36,500         A
492-7885648       n/a       11/19/12     01/01/08        02/01/11    06/15/13       62,125         A
493-7558467       n/a       02/13/34     12/01/03        12/01/03    04/10/04       26,243         A
493-7790146       n/a       04/26/11     10/01/04        10/01/04    02/11/05       44,607         A
493-7852047       n/a       09/13/09     10/01/04        10/01/04    06/05/05       55,646         A



                                                    30
                                                      Oldest unpaid
               Refinanced   Expiration    Default                                                 Lender
Case number                                    24      installment    Claim date    Loss amount
              case number     date        date                                                    status 25
                                                           date
493-7905859      n/a        12/16/09      01/01/05        01/01/05    05/15/05         39,553        A
495-6334157      n/a        12/20/09      03/01/04        03/01/04    07/15/04         33,306        A
495-6749841      n/a        03/07/12      10/01/04        12/01/04    03/13/05         51,145        T
495-7038050      n/a        06/12/11      11/01/04        12/01/04    04/14/05         36,523        A
495-7511408      n/a        11/03/11      10/01/06        01/01/09    06/02/13         49,336        T
501-7384457      n/a        12/27/36      11/01/08        05/01/09    09/06/13        140,923        A
521-5315608      n/a        01/26/11      02/01/05        02/01/05    06/16/05         14,606        A
521-5607344      n/a        06/18/33      10/01/03        10/01/03    05/20/04         53,340        A
541-7738733      n/a        03/19/13      12/01/08        04/01/11    01/18/14        104,755        A
544-0139184      n/a        08/16/17      12/01/12        12/01/12    12/29/13         22,048        A
561-7722152      n/a        03/13/33      11/01/03        11/01/03    04/15/04         28,378        A
561-7959341      n/a        01/30/09      09/01/04        09/01/04    06/17/05         34,492        T
561-8061603      n/a        08/19/09      09/01/05        02/01/09    01/24/14        141,714        T
561-8904049      n/a        03/09/14      11/01/09        07/01/10    05/17/12        159,251        A
581-2395831      n/a        02/14/11      06/01/04        08/01/04    06/30/05         12,970        T
581-2982261      n/a        03/22/13      06/01/08        04/01/11    07/28/13        100,523        T
581-4282041      n/a        10/25/16      11/01/11        02/01/12    10/29/12         74,181        A
                                                                                                  A = 150
                                 Totals                                            $ 22,381,768
                                                                                                  T = 87




                                                     31
  Appendix E

                      CWCOT PROGRAM LOANS NOT BILLED

                                                                   Oldest unpaid
                  Refinanced      Expiration       Default                                                          Lender
Case number                                             26          installment    Loss date      Loss amount
                 case number        date           date                                                             status 27
                                                                        date
011-7288570           n/a          03/06/17        06/01/12          06/01/12      11/08/13          55,137            A
022-1534339      022-1798053       07/15/08        10/01/06          01/01/12      12/06/12          51,142            A
022-1843849           n/a          02/13/11        02/01/08          03/01/11      12/19/13         108,181            T
022-2261577           n/a          06/23/16        11/01/11          11/01/11      10/14/12          77,169            A
023-1622136           n/a          05/17/10        12/01/03          07/01/11      08/11/12          74,465            A
023-3937454           n/a          04/01/15        12/01/11          02/01/12      02/04/13           4,554            A
094-3222735           n/a          06/02/00        01/31/99          07/01/08      10/04/13          29,737            A
095-0170099           n/a          02/23/11        03/01/10          03/01/10      03/10/13         120,932            T
105-0748951           n/a          01/26/11        11/01/03          09/01/12      08/30/13          54,488            A
105-2849352           n/a          11/27/11        05/01/09          08/01/10      12/07/12          60,073            A
105-6472991           n/a          06/15/41        07/01/11          07/01/11      02/15/13         167,568            A
105-6897662           n/a          03/16/42        06/01/12          07/01/12      12/08/13          25,213            A
105-6905513           n/a          05/07/17        06/01/12          06/01/12      01/18/13          42,225            A
105-6972060           n/a          04/19/17        07/01/12          07/01/12      01/16/14          25,826            A
137-1544186           n/a          01/26/11        07/01/02          03/01/11      01/06/14         100,976            A
137-3615195           n/a          08/16/37        12/01/07          04/01/10      02/15/13         176,332            A
137-4451967           n/a          03/02/14        08/01/09          09/01/09      08/19/13         135,122            A
151-9016716           n/a          11/06/38        01/01/09          03/01/09      10/11/13          67,561            A
261-8002343           n/a          06/04/08        05/01/02          02/01/12      01/19/14          42,169            A
291-4500257           n/a          08/10/16        09/01/11          12/01/11      09/30/13          85,824            A
332-4395592           n/a          05/17/35        02/01/08          09/01/11      06/01/13          51,824            A
332-4657522           n/a          10/28/13        12/01/08          06/01/09      02/02/14         130,709            A
332-5504770           n/a          02/14/17        06/01/12          06/01/12      08/02/13          55,272            T
381-6766222           n/a          07/08/09        03/01/03          11/01/09      06/16/13          94,400            A
413-4325294           n/a          06/10/34        03/01/11          05/01/11      12/07/12          25,804            T
413-5388891           n/a          02/24/15        05/01/10          07/01/10      01/27/14          96,856            A
421-4085326           n/a          10/21/10        12/01/04          04/01/12      09/01/13          34,040            T
491-7590119           n/a          06/30/09        10/01/02          06/01/12      01/11/13          36,057            A
492-6107500           n/a          09/05/06        11/01/02          04/01/12      09/20/13          56,462            T
492-9189810           n/a          11/02/41        01/01/12          01/01/12      08/23/12          57,135            A
511-0426670           n/a          06/20/16        10/01/11          10/01/11      06/11/12          39,585            A
512-0267268           n/a          04/15/16        06/01/11          11/01/12      08/03/13          52,087            T
                                                                                                                    A = 25
                                          Totals                                                 $2,234,925
                                                                                                                    T=7



  26
     Either the first unpaid default date (if earlier than the expiration date) or the open default status date. The open
  default status date is the status date that was submitted to the Single Family Default Monitoring System for the loan.
  27
     A = active; T = terminated


                                                              32
   Appendix F

                         LOANS IN DEFAULT AND NOT BILLED

                                                                   Oldest unpaid
                   Refinanced        Expiration       Default                                                          Lender
Case number                                                         installment      Loss date      Loss amount
                  case number          date           date 28                                                          status 29
                                                                        date
011-4225007            n/a            09/17/02       12/31/97         04/01/06        05/08/07        $35,148                T
011-4328272            n/a            08/26/03       05/01/02         09/01/05        02/15/08         62,985                T
011-4417104            n/a            02/02/04       11/30/99         06/01/05        05/30/08         40,960                T
011-4431526            n/a            03/12/04       07/31/99         06/01/04        11/21/05         36,844                T
011-4507330            n/a            08/18/04       05/31/00         09/01/05        12/08/08         71,991                T
011-5501964            n/a            04/17/11       06/01/06         05/01/11        10/24/12         70,383                A
022-1479964            n/a            08/31/04       10/31/00         11/01/11        06/21/13          4,658                T
022-1680929            n/a            08/29/10       10/01/03         08/01/11        02/01/13         88,423                T
023-0460273            n/a            01/25/06       06/30/01         11/01/07        08/20/09        124,832                T
023-0502271            n/a            02/27/06       10/01/01         05/01/08        08/06/11         97,930                T
023-0857045            n/a            05/18/08       02/01/02         04/01/10        10/11/11         50,899                T
023-1002267            n/a            07/28/09       01/01/03         01/01/10        07/29/12         34,187                A
023-1145619            n/a            12/28/09       02/01/03         02/01/11        06/15/12         43,388                A
023-1540571            n/a            03/04/10       03/01/04         01/01/11        07/18/12         39,701                T
023-1631961            n/a            05/04/09       01/01/05         05/01/10        04/17/12        101,168                A
023-2016834            n/a            11/01/09       02/01/09         07/01/10        11/22/11         74,635                A
031-2354406            n/a            08/28/01       04/30/97         04/01/06        09/18/09         29,711                T
031-2510964            n/a            08/10/03       09/30/98         06/01/05        05/28/06          5,042                A
031-2527425            n/a            05/26/03       08/31/98         07/01/05        11/14/06          7,081                T
031-2739641            n/a            08/29/05       09/01/04         10/01/05        04/16/07         23,470                A
031-3248391            n/a            01/06/10       05/01/07         02/01/11        11/26/11         52,995                A
045-6247298            n/a            09/08/10       05/01/08         01/01/11        10/31/12         32,100                A
052-1494933            n/a            06/28/09       02/01/04         02/01/10        04/26/11         84,332                A
052-1556630            n/a            12/09/08       01/01/08         12/01/09        04/12/11         52,882                T
052-2269054            n/a            01/26/11       07/01/05         04/01/11        07/17/12         24,688                A
052-3510205            n/a            03/07/10       09/01/05         05/01/11        01/31/13         52,543                T
052-4282506            n/a            02/27/13       05/01/08         11/01/12        09/06/13         53,148                A
061-2786983            n/a            10/03/10       08/01/04         03/01/12        08/30/13         76,025                A
092-6905304            n/a            07/16/02       07/31/00         07/01/09        06/16/11         55,333                T
092-8055284            n/a            01/10/05       11/30/00         04/01/05        07/23/10         43,084                T
092-8647832            n/a            08/23/06       12/31/01         07/01/08        05/09/12         81,800                T
093-4032467            n/a            06/08/01       01/31/99         10/01/08        05/08/13         41,673                T
101-7905473            n/a            09/04/02       11/30/98         02/01/06        12/19/08         71,630                T
101-8107155            n/a            10/07/03       12/31/98         12/01/03        04/17/07         34,987                T
101-8372797            n/a            12/31/03       12/31/99         07/01/08        12/07/09         40,571                A
101-8403366            n/a            03/26/04       04/30/99         04/01/07        09/05/08         42,859                A


   28
      Either the first unpaid default date (if earlier than the expiration date) or the open default status date. The open
   default status date is the status date that was submitted to the Single Family Default Monitoring System for the loan.
   29
      A = active; T = terminated


                                                             33
                                                    Oldest unpaid
               Refinanced   Expiration   Default                                              Lender
Case number                                          installment    Loss date   Loss amount
              case number     date       date 28                                              status 29
                                                         date
101-8456296       n/a        05/21/04    06/30/99     03/01/07      01/20/10       79,510        A
101-8586180       n/a        05/21/04    07/31/99     09/01/09      08/30/11       52,734        A
101-8634126       n/a        05/05/04    01/31/00     09/01/07      06/16/09       57,936        A
101-8729293       n/a        05/04/04    10/31/99     11/01/08      10/29/11       77,600        T
101-8919535       n/a        08/12/04    11/30/99     03/01/09      09/28/10       72,471        T
101-8952752       n/a        09/15/04    02/29/00     08/01/05      04/13/07       17,485        T
101-9009696       n/a        10/18/04    08/31/00     05/01/09      03/15/11      108,073        A
101-9025516       n/a        11/24/04    09/30/00     02/01/07      05/28/08       36,244        T
101-9064004       n/a        02/06/08    05/31/01     05/01/08      03/01/11       68,918        T
101-9240124       n/a        06/22/05    10/01/03     05/01/07      03/17/09       84,506        T
101-9247609       n/a        07/10/05    01/31/01     11/01/08      05/25/11       70,196        T
101-9485440       n/a        06/09/08    12/01/06     06/01/09      03/21/11       94,415        T
101-9518794       n/a        06/09/08    10/01/06     11/01/09      09/09/10       57,166        T
101-9562542       n/a        05/05/09    09/01/07     04/01/11      10/03/12       49,663        A
101-9565158       n/a        02/06/08    06/30/01     06/01/08      04/21/10      170,105        T
101-9769700       n/a        09/24/08    11/01/01     10/01/08      02/03/10       78,530        A
101-9819179       n/a        04/04/08    08/01/01     04/01/08      12/02/09       66,612        T
105-0453755       n/a        02/24/09    12/01/05     12/01/09      03/19/11       97,308        T
105-0979763       n/a        11/12/08    02/01/04     11/01/11      04/10/13       78,980        A
105-1827699       n/a        04/07/10    08/01/04     10/01/10      04/04/12      114,401        T
105-2025878       n/a        10/05/09    12/01/04     09/01/10      10/03/12       59,392        A
105-2031686       n/a        10/20/09    12/01/04     04/01/11      09/28/13      142,211        A
105-2260842       n/a        04/06/10    02/01/06     07/01/10      10/16/12      147,643        T
105-2491704       n/a        12/14/10    01/01/10     10/01/12      08/17/13       68,411        T
105-2532917       n/a        12/23/10    02/01/06     03/01/12      04/17/13       78,237        T
105-2676607       n/a        09/20/11    09/01/06     01/01/12      11/15/12      129,906        T
131-8501974       n/a        01/08/02    11/30/97     01/01/05      02/11/08      130,563        T
132-1811918       n/a        04/22/10    06/01/05     04/01/10      01/24/13       78,945        A
137-1245108       n/a        11/19/08    03/01/02     01/01/11      11/26/12      102,366        T
151-4882066       n/a        02/12/01    10/31/00     08/01/01      01/07/04       18,454        A
151-4980972       n/a        07/11/01    10/01/00     10/01/01      01/20/04       12,577        A
151-5288953       n/a        12/11/02    08/31/98     02/01/04      03/20/08       67,827        T
151-5521852       n/a        02/03/04    10/31/99     09/01/07      05/14/13       82,543        T
151-5792969       n/a        07/26/04    01/31/00     10/01/04      06/14/06       28,989        T
151-5828331       n/a        09/17/04    01/31/00     03/01/05      02/02/07       37,546        T
151-5896866       n/a        01/31/05    05/31/00     05/01/09      06/27/10       63,008        T
151-6004581       n/a        07/02/08    06/30/01     01/01/09      10/15/10       55,063        A
151-6386957       n/a        11/11/08    10/01/06     04/01/09      11/02/12       70,618        A
161-1713363       n/a        01/27/03    11/30/98     08/01/07      09/23/11       49,645        T
182-0806730       n/a        10/26/10    09/01/06     12/01/10      11/06/12      102,168        T
197-3366496       n/a        01/05/09    09/01/04     12/01/10      03/04/13      108,113        T
201-2614694       n/a        04/02/03    06/30/98     12/01/03      07/20/06       17,231        T
201-3174937       n/a        08/13/09    09/01/05     02/01/10      05/02/12       45,183        T
221-2769854       n/a        03/01/07    10/31/97     08/01/07      09/09/09       34,320        T
221-2798187       n/a        03/01/07    12/31/97     02/01/07      01/28/09       26,718        T




                                               34
                                                    Oldest unpaid
               Refinanced   Expiration   Default                                              Lender
Case number                                          installment    Loss date   Loss amount
              case number     date       date 28                                              status 29
                                                         date
221-2950968        n/a       10/13/03    12/31/99     10/01/03      01/18/05       21,551        A
221-3465725        n/a       04/04/10    11/01/03     07/01/11      10/17/12       79,534        T
222-1372073        n/a       07/20/00    11/30/95     11/01/03      04/04/05       18,167        T
222-1439756        n/a       01/26/03    02/29/00     08/01/05      02/07/07       20,626        T
261-6584469        n/a       02/26/02    12/31/97     02/01/09      04/26/10       42,135        A
261-6643199        n/a       06/04/02    01/31/98     06/01/08      06/21/10       97,634        A
261-6931975        n/a       08/11/03    11/30/99     05/01/05      02/23/09       93,329        A
261-7056322        n/a       12/30/03    06/30/00     10/01/07      12/11/09       85,696        T
261-7091280        n/a       03/05/04    05/31/00     06/01/07      07/06/09       73,290        A
261-7153508        n/a       05/11/04    12/31/99     04/01/07      04/22/09       55,926        T
261-7400977        n/a       03/17/05    09/01/01     04/01/05      06/19/06       51,101        A
261-7432598        n/a       01/08/08    05/01/01     01/01/09      10/07/11       95,458        A
261-7809966        n/a       01/26/08    12/01/01     02/01/11      11/19/12      113,125        T
261-7991516        n/a       07/09/07    12/01/06     08/01/07      04/15/09      103,774        A
261-7787802   261-8761269    08/25/08    10/01/06     02/01/09      01/31/12      118,255        A
261-9111575        n/a       09/21/11    03/01/07     03/01/12      11/12/12       79,180        T
262-1238002        n/a       05/25/04    12/31/99     07/01/04      05/01/06       55,625        T
262-1300892        n/a       10/30/08    06/30/01     05/01/09      04/17/12       85,066        A
262-1453966        n/a       07/16/08    08/01/03     02/01/09      03/06/13       94,487        A
263-3157829        n/a       01/08/08    08/01/01     06/01/09      08/31/11       48,886        A
271-7388900        n/a       08/05/01    07/31/97     11/01/02      08/15/06       46,408        A
283-0165528        n/a       10/07/03    06/30/99     07/01/05      07/09/10       39,603        T
283-0174956        n/a       01/04/04    05/31/99     04/01/04      07/06/05       15,687        A
283-0177975        n/a       11/25/03    01/31/99     08/01/04      06/26/07       29,009        A
291-2518488        n/a       12/30/03    09/30/99     08/01/11      06/26/13       60,954        T
291-2704133        n/a       02/17/09    11/30/00     09/01/10      10/30/11       53,034        T
292-3720226        n/a       07/12/04    05/31/00     04/01/12      06/11/13       19,929        A
292-3859149        n/a       06/07/05    02/01/01     06/01/10      01/03/12       75,262        A
292-3870377        n/a       01/24/08    06/30/01     05/01/08      10/22/09       52,642        A
292-3919309        n/a       11/11/08    04/01/07     07/01/09      04/23/12       55,058        A
292-3811219   292-4129862    03/14/05    07/01/02     03/01/07      06/01/09       42,978        A
321-2067746        n/a       08/22/05    11/30/00     07/01/09      05/23/11       50,480        A
332-4335474        n/a       12/16/09    10/01/04     06/01/10      10/28/11       98,691        T
351-4737353        n/a       01/25/11    09/01/06     02/01/11      10/31/13      172,459        A
371-2429067        n/a       04/29/02    03/31/98     08/01/03      10/25/05       43,892        T
371-3013881        n/a       10/03/06    02/01/03     10/01/06      12/24/09       57,643        T
372-2459791        n/a       05/23/00    07/31/97     08/01/05      04/28/09       69,950        T
372-2785742        n/a       06/16/03    11/30/99     03/01/06      02/13/09       92,243        A
372-2906997        n/a       09/22/04    08/31/01     06/01/06      06/27/08       46,777        A
381-4329512        n/a       02/18/99    10/31/95     01/01/07      03/31/08       10,987        T
381-5307020        n/a       03/23/03    10/31/98     08/01/06      08/08/07       45,819        T
381-5492138        n/a       05/21/04    10/31/99     04/01/08      09/26/11       91,593        T
381-5556834        n/a       06/07/04    10/31/00     09/01/08      01/21/10       52,721        T
381-5759231        n/a       01/07/05    05/01/01     01/01/05      05/09/06       30,056        A
381-5760404        n/a       04/20/05    09/30/00     05/01/05      01/03/07       61,373        T
381-6439571        n/a       12/03/08    05/01/02     02/01/11      11/23/12      105,943        T



                                               35
                                                    Oldest unpaid
               Refinanced   Expiration   Default                                              Lender
Case number                                          installment    Loss date   Loss amount
              case number     date       date 28                                              status 29
                                                         date
381-7454342       n/a        09/21/09    11/01/04     08/01/10      08/07/12       83,092        T
411-2890337       n/a        07/27/03    03/31/99     02/01/04      04/25/06       33,237        A
411-2975189       n/a        03/10/04    09/30/99     05/01/06      07/25/08       77,048        A
411-3186014       n/a        11/14/05    12/01/00     09/01/06      01/16/09       50,558        T
412-3903298       n/a        06/17/02    10/31/97     01/01/05      12/31/07      112,411        T
412-4324045       n/a        03/29/05    07/31/00     05/01/10      01/15/13      267,147        T
412-4539153       n/a        06/24/08    02/01/02     08/01/08      04/29/11      104,779        A
412-4641046       n/a        11/13/07    12/01/01     03/01/08      12/15/09       75,535        T
412-4875251       n/a        02/24/09    09/01/03     06/01/10      12/31/12      147,615        A
413-3852456       n/a        09/24/08    11/01/02     06/01/09      08/09/12      126,030        A
421-3285485       n/a        02/11/02    05/31/98     01/01/07      05/21/08       29,648        A
421-3722099       n/a        01/19/10    04/01/02     09/01/10      05/27/11       13,582        A
422-1791497       n/a        09/13/96    01/31/92     12/01/02      04/19/06       19,285        T
431-3354794       n/a        07/23/04    02/29/00     07/01/04      01/25/07       43,281        T
431-3435166       n/a        08/30/07    05/31/01     04/01/08      08/26/10       94,319        A
441-5315990       n/a        02/25/02    11/30/97     06/01/07      05/26/10       41,930        A
442-1850902       n/a        01/03/02    12/31/97     12/01/03      10/04/06       35,067        T
481-2097385       n/a        03/15/04    10/31/99     10/01/07      04/09/09       41,193        A
481-2149605       n/a        10/20/04    03/31/00     12/01/04      08/17/07       19,998        T
482-2292893       n/a        04/21/02    01/31/97     07/01/10      11/09/12       10,891        A
482-2752643       n/a        07/12/00    12/31/95     08/01/02      04/09/07       45,873        A
482-2806945       n/a        08/31/00    05/31/96     04/01/06      03/21/08       41,399        A
482-2840130       n/a        12/06/00    08/31/96     04/01/04      06/27/06       48,491        A
482-2921438       n/a        07/23/01    09/30/00     02/01/12      01/09/13       21,055        A
482-2921654       n/a        09/16/01    05/31/97     06/01/03      02/16/06       22,044        T
482-2921864       n/a        11/18/01    06/30/01     09/01/03      07/20/05       26,718        A
482-3040175       n/a        12/03/02    12/31/98     12/01/08      03/30/10       68,123        T
482-3049528       n/a        05/22/03    09/30/99     07/01/03      10/17/05       52,463        A
482-3087297       n/a        07/09/03    09/30/99     09/01/04      07/01/05       20,980        A
482-3298000       n/a        02/28/05    10/01/00     09/01/05      04/08/08       36,705        T
482-3315331       n/a        05/16/05    09/30/00     03/01/09      07/28/10       59,048        A
483-2642990       n/a        04/16/04    11/30/99     12/01/04      04/17/07       18,219        T
483-2856486       n/a        11/19/07    02/28/01     07/01/08      10/21/10       39,247        A
483-3266688       n/a        04/12/09    09/01/07     04/01/10      11/06/12       82,944        A
491-5934051       n/a        04/12/00    06/30/95     10/01/03      01/26/07       20,507        A
491-6148717       n/a        12/11/05    06/01/03     03/01/07      07/24/09       46,881        T
491-6168025       n/a        12/19/01    01/31/98     07/01/06      01/09/08       23,905        T
491-6336018       n/a        01/30/03    10/31/98     04/01/06      06/26/07       36,982        T
491-6347969       n/a        12/12/02    09/30/98     11/01/09      05/06/13       60,775        T
491-6396300       n/a        10/16/03    10/31/98     02/01/05      02/21/06       22,326        T
491-6425935       n/a        04/23/04    04/30/00     07/01/07      12/31/09       32,139        T
491-6473772       n/a        08/04/03    03/31/99     04/01/05      09/22/06       19,292        T
491-6497342       n/a        11/05/03    02/29/00     07/01/05      01/23/08       42,696        T
491-6651914       n/a        04/05/04    07/01/05     01/01/09      09/14/12       42,648        T
491-6842307       n/a        01/07/05    11/30/00     07/01/06      07/11/07       39,235        A




                                               36
                                                    Oldest unpaid
               Refinanced   Expiration   Default                                              Lender
Case number                                          installment    Loss date   Loss amount
              case number     date       date 28                                              status 29
                                                         date
491-6893481       n/a        04/18/05    07/31/00     10/01/08      06/30/10       38,262        A
491-6981852       n/a        08/07/05    05/31/01     09/01/05      09/26/06       32,194        A
491-6986271       n/a        07/11/08    12/01/01     08/01/08      10/05/11      119,756        A
491-7350357       n/a        01/26/11    11/01/02     05/01/11      07/09/12       39,948        A
491-7374919       n/a        11/30/06    07/01/05     02/01/09      08/22/11       72,903        A
491-8777894       n/a        02/28/11    12/01/09     04/01/11      10/29/12       66,547        A
492-3710911       n/a        09/17/95    07/31/94     12/01/03      11/30/04       14,669        T
492-5084426       n/a        11/26/01    09/30/97     12/01/02      03/01/05       45,622        T
492-5117147       n/a        01/28/02    08/31/97     01/01/04      01/18/05       14,414        T
492-5164770       n/a        07/16/02    12/31/97     08/01/07      10/07/08       14,875        A
492-5329690       n/a        10/26/03    03/31/99     06/01/08      06/21/10       33,612        A
492-5377673       n/a        07/20/03    03/31/00     02/01/06      02/06/08       24,454        T
492-5410984       n/a        09/15/03    03/31/00     11/01/06      11/21/07       20,182        A
492-5647595       n/a        07/16/04    11/30/00     08/01/05      06/15/06       17,607        T
492-5918953       n/a        04/30/08    02/01/02     12/01/09      04/19/11       81,338        A
492-5943153       n/a        02/22/06    08/31/01     11/01/10      08/29/12       56,780        A
492-6498822       n/a        01/26/11    01/01/03     01/01/11      03/22/12       89,129        A
492-6512221       n/a        07/23/09    07/01/03     12/01/10      09/26/12      116,790        T
493-6203100       n/a        05/11/03    09/30/98     01/01/05      11/19/08       32,403        T
493-6224225       n/a        06/10/03    11/30/98     11/01/04      02/21/06       11,347        T
493-6292556       n/a        10/09/03    08/31/99     08/01/05      12/03/08       31,066        T
493-6331039       n/a        10/22/03    10/31/99     02/01/05      08/03/07       45,073        T
493-6572716       n/a        09/10/09    06/30/01     07/01/11      04/30/13       27,202        A
493-6845821       n/a        01/24/08    01/01/05     03/01/10      03/15/12       36,536        A
493-6942832       n/a        08/06/08    03/31/02     10/01/09      12/05/11       58,457        A
493-7094112       n/a        01/22/09    05/01/02     11/01/10      05/05/13       65,330        A
493-7369615       n/a        05/02/08    08/01/04     05/01/09      11/09/10       64,113        A
494-2415914       n/a        07/01/03    01/31/00     03/01/05      04/06/07       11,269        T
494-2624369       n/a        08/19/07    11/01/01     01/01/10      01/19/12       34,842        T
495-4463361       n/a        07/25/00    09/30/96     12/01/03      10/03/06        6,699        T
495-4849442       n/a        10/31/02    11/30/98     09/01/10      09/26/12       36,734        T
495-4985536       n/a        04/23/03    09/30/98     09/01/04      10/31/05       16,967        A
495-4994885       n/a        03/30/03    02/28/99     12/01/11      05/10/13        2,657        T
495-5090222       n/a        09/15/03    05/31/99     07/01/11      05/14/13       18,538        T
495-5112617       n/a        09/22/03    02/28/99     10/01/04      01/03/08       30,842        A
495-5354756       n/a        06/28/04    11/30/99     03/01/09      10/04/12       37,053        T
495-6016319       n/a        06/04/08    04/01/02     08/01/11      07/25/12       57,225        T
541-4841576       n/a        06/04/02    06/30/00     08/01/09      09/12/11       39,232        A
541-4961315       n/a        11/06/02    03/31/98     12/01/10      02/11/13       97,162        T
541-6213277       n/a        02/27/09    05/01/02     02/01/09      08/22/12       51,520        A
561-7098671       n/a        03/13/08    02/01/01     03/01/10      07/23/12       40,827        T
561-7143498       n/a        04/11/08    10/01/01     07/01/09      07/07/11       76,514        T
561-7498261       n/a        11/25/08    03/01/03     01/01/09      10/06/10       43,819        T
562-1822045       n/a        11/08/09    11/01/03     11/01/10      04/30/12       73,284        T
581-1990581       n/a        01/16/02    01/31/98     01/01/03      06/17/05       18,246        T




                                               37
                                                    Oldest unpaid
               Refinanced   Expiration   Default                                              Lender
Case number                                          installment    Loss date   Loss amount
              case number     date       date 28                                              status 29
                                                         date
                                                                                              A = 98
                                Totals                                          $12,490,032
                                                                                              T = 119




                                               38
      Appendix G

      LOANS FOR WHICH THE INDEMNIFICATION AGREEMENTS
          DID NOT EXTEND TO STREAMLINE REFINANCES

                                                                         Oldest unpaid
   Case          Refinanced                  Expiration     Default                            Unpaid          Loss         Lender
                                 Status 30                                installment
  number        case number                    date         date 31                            balance        amount        status 32
                                                                              date
043-7722365     043-8992630          A        01/30/14      03/01/10        10/01/13       $    115,703                         A
105-0046490     105-5054345          A        01/26/11      01/01/10        09/01/13            123,570                         A
105-3224211     105-4800302          A        01/15/13      01/01/10        02/01/12            195,658                         A
137-0990845     137-4363521          A        01/26/11      06/01/09        04/01/13             88,755                         A
137-3759603     137-4807212          A        12/31/12      08/01/09        07/01/13            172,558                         A
137-4126063     137-4470336          A        09/18/13      09/01/09        07/01/10            228,127                         A
151-5362976     151-7189293          A        03/26/28                                           47,156                         A
221-3216094     221-3378270          A        02/13/06      10/01/03        02/01/13            128,362                         T
381-6006353     381-8021925          A        01/26/11      09/01/10        12/01/10            119,029                         A
381-6175501     381-8949501          A        01/26/11      11/01/10        10/01/13            122,550                         A
483-3114991     483-3720550          A        01/26/11      07/01/08        02/01/14             93,456                         A
483-3817247     483-4164551          A        03/26/13      09/01/09        12/01/13             90,858                         A
483-3961641     483-4585952          A        09/29/15                                          109,388                         A
491-7441589     491-9464582          A        01/26/11      11/01/09        08/01/12            104,659                         A
492-6424772     492-7864951          A        01/26/11      12/01/07        12/01/13            116,528                         A
023-2630332     023-3618469          C        02/21/13      10/01/09        10/01/09                        $ 160,196           A
137-4157422     137-4592927          C        08/11/13      08/01/02        04/01/04           143,922 33                       A
151-5444143     151-5752533          C        07/27/28      06/01/03        07/01/05                            76,628          A
422-2409027     422-2516869          C        07/31/05      04/01/03        04/01/03                            30,662          T
521-4594629     521-5435734          C        08/21/05      03/01/03        03/01/03                            58,933          A
521-4646936     521-4939083          C        10/02/05      11/01/09        08/01/12                            46,809          T
                                 A = 15                                                                                    A = 18
           Totals                                             Totals                        $2,000,279 $373,228
                                 C=6                                                                                       T=3




      30
         A = active; C = claim
      31
         Either the first unpaid default date (if earlier than the expiration date) or the open default status date. The open
      default status date is the status date that was submitted to the Single Family Default Monitoring System for the loan.
      32
         A = active; T = terminated
      33
         The amount noted is the claim amount. The property had not been sold by HUD as of April 30, 2014.


                                                                39
